                      OFFICE O F THE INSPECTOR GENERAL
                       CORPORATION FOR NATIONAL AND
                            COMMUNITY SERVICE




                       Summary of Eighteen State Commission
                           Pre-Audit Survey Reports

                          OIG Audit Report Number 00-42
                                    August 14,2000




This report was issued to Corporation management on September 27,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than March 26, 2001, and
complete its corrective actions by September 27, 2001. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                          Office of Inspector General
               Corporation for National a n d Community Service
         Summary of Eighteen State Commission Pre-Audit Survey Reports
                          O I G Report Number 00-42


                               TABLE O F CONTENTS



Background and Purpose

Summary of Results

Summary of Responses by the State Commissions and CNS

Summary Tables:


      Table 1: Summary of State Commission Program Year 1999 Staffing, Funding, and
                  Subgrantee Information
      Table 2: Summary of Adequate Systems of Management Controls by State
               Commission
      Table 3: Analysis of State Commission Findings by Category, Finding, and Frequency
                of Occurrence
      Table 4: Summary of State Commission Findings by Commission and the Number of
                 Findings in Each Category
       Table 5: Summary of Conditions Reported by State Commission
       Table 6: State Commissions Audited as a Major Program Under Single Audit Act
                Requirements


Appendix A: Listing of OIG State Commission Pre-Audit Survey Reports

Appendix B: Pre-Audit Surveys Objectives, Scope and Methodology

Appendix C: The Corporation for National Service's Response to this Summary Report

Appendix D: OIG Comments on Specific Items Noted in the Corporation's Response
                           Office of Inspector General                                           CORPORAl'ION

                Corporation for National and Community Service                                   FOR NATIONAL
          Summary of Eighteen State Commission Pre-Audit Survey Reports                          as             I
                            OIG Report Number 00-42



Background and Purpose
State commissions play an important role in the oversight of AmeriCorps programs and
expenditures. Currently the Corporation for National Service awards approximately two-thirds
of its AmeriCorps Staternational funds to state commissions. Most state commissions receive
additional funding for Learn and Serve America or other Corporation-funded initiatives. The
Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains
comprehensive information on its grants, including those to state commissions and their
subgrantees. Moreover, although the Corporation began state commission administrative
reviews in 1999, the Corporation, historically, has not carried out a comprehensive, risk-based
program for grantee financial and programmatic oversight and monitoring. It is also unlikely
that AmeriCorps programs are subject to compliance testing as part of state-wide audits under
the Single Audit Act due to their size relative to other state programs.
CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on the
state commissions ' operations and funding. The surveys consist of on-site reviews at the state
commissions and generally last one to two weeks. They are designed to provide a preliminary
assessment ofthe commissions pre-award and grant selection procedures, fiscal administration,
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting),
and the use of training and technical assistance funds. The surveys are also intended to provide
information on other audit coverage that may be afforded by the Single Audit Act requirements.
Using this information, we assess risk and determine the timing, nature and scope of future OIG
audit work.
We agreed with Congressional committee staff to periodically provide a cross-cutting analysis
of the results of the state commission pre-audit surveys to provide insight on the strengths and
weaknesses of the state commissions. This report summarizes the conditions and other
information revealed by the first 18 pre-audit surveys1.
Summary of Results
We selected the first state commissions for survey work intending to cover large and small
commissions and commissions that were considered by the Corporation to be well-run and those




' Appendix A lists the 18 state commissions and corresponding OIG audit report number. Appendix B provides
information on the objectives, scope and methodology for this summary report and for the individual pre-audit
surveys upon which it is based.
                                                                                             Inspector General
                                                      1                                      1201 New York Avenue, NW
                                                                                             Washington, I)C 20Fi25
reputed to be in other ~ategories.~
                                 Review of the first eighteen reports indicates that we achieved
the cross section that we were seeking. Table 1 indicates that we surveyed commissions for
which CNS funding for program year 1999 ranged from less than $1 million (Delaware and
Wyoming) to over $10 million (Washington). The number of subgrantees ranged from a low of
four (Delaware) to a high of 55 (Ohio). Their staffing ranged from 1 FTE (Wyoming) to 10
(Ohio).

       Strengths

As illustrated in Table 2, the survey procedures revealed that, during the program years covered
by our surveys, only 1 of the 18 commissions, Tennessee, had established systems that provide
reasonable assurance that pre-award and grant selection procedures, fiscal administration,
monitoring of subgrantees (including ArneriCorps Member activities and servicehour reporting),
and the use of training and technical assistance funds were adequate. However, all 18 state
commissions had established systems to provide reasonable assurance that training and technical
assistance is made available and provided to subgrantees.
Eleven of the 18 commissions had established systems that were described as providing
reasonable assurance that the pre-award and grant selection procedures were adequate. Most
administered an open, competitive process to select national service subgrantees. However, half
ofthe commissions did not always retain sufficient documentation to support their grant-making
process, in particular, conflict of interest forms signed by individuals reviewing applications.
Nine of the surveyed commissions, or 50 percent, had systems characterized as adequate for the
fiscal administration of CNS grant funds. Many of them, however, did not review and maintain
subgrantee financial status reports (FSRs) or obtain them from the subgrantees in a timely
manner.

        Weaknesses

Assessment of the Commissions' systems for monitoring subgrantees proved to be the most
problematic area in the pre-audit survey assessments (as illustrated in Table 3). Clearly, more
emphasis needs to be placed on the commissions' responsibility for oversight of their
subgrantees. Further, although many of the commissions utilize site visit monitoring checklists
fashioned after a model provided by a Corporation-funded training and technical assistance
organization, documentation maintained at the Commission level was often insufficient to allow
us to assess the extent of the monitoring that was performed. Likewise, at one third of the state
commissions, we found little or no evidence that subgrantee audit reports were routinely
reviewed by commission staff.3




 To the extent possible, the surveys covered systems in place at the Commission for all years of CNS funding
as described in Appendix B.

' Tables 4 and 5 provide information on the findings reported in each of the 18 state commission pre-audit survey
reports.
In addition to the specific recommendations for improving monitoring at individual state
commissions, we recommended that the Corporation revise its guidance to state commissions
to specify minimum monitoring procedures to be performed, as well as minimum documentation
requirements. The Corporation has not responded to this recommendation.
We also recommended improvements in fiscal administration policies and procedures at most
of the commissions. Findings in the area of fiscal administration were most often related to
review of and receipt dates for subgrantee financial status reports as shown in Table 3.
       Single Audit Act Coverage

As illustrated in Table 6, we found that only three of the 18 commissions have been audited as
separate entities or tested as major programs as defined by OMB Circular A-133, Audit of
States, Local Governments, and Non-Profit Organizations.


Summary of Responses by State Commissions and the Corporation to the Pre-Audit
    Survey Reports
We provided individual draft reports to each state commission surveyed and to the Corporation
and considered their responses when finalizing the reports, Each final report includes the
responses received. In a number of cases, the state commissions have disagreed with our reports,
but 13 of the 18 indicated that they have initiated corrective actions in response to our findings
and recommendations. Because we are scheduling commissions for audit based on risk and will
be performing audit work over the next several years (rather than immediately for all
commissions), each of our survey reports recommends that the Corporation follow-up to see that
the conditions reported have been effectively corrected.
The Corporation responded to 12 of the 18 reports. Generally, the Corporation's responses have
indicated that CNS will consider the reports during their administrative monitoring and oversight
reviews to be performed on a three year cycle. The Corporation performed six administrative
reviews during FY 1999 and, as of July 3 1,2000, reported that three had been completed during
FY 2000. Another seven administrative reviews are scheduled during the final months of this
fiscal year. OIG has not been provided with a schedule or plan that would indicate how the
Corporation plans to complete the administrative standards reviews on a three year cycle. The
Corporation's responses also indicate that CNS will request the Commissions to report corrective
actions to them on a semiannual basis.
The Corporation's response to this summary report argues against, among other things, further
CNS OIG audit work for certain state commissions. It is important to clarify that, even before
beginning the pre-audit surveys, CNS OIG had intended to perform audit work at most, if not
all, of the state commissions over the next several years. The purpose of the pre-audit surveys
is to gather information to allow us to determine the timing of and the extent of our future audit
work at each state commission. The timing and the scope of the work will be based on the
conditions and other information reported in the pre-audit surveys, other information, including
other audit coverage under Federal Requirements, and OIG's assessment of risk. We will also
consider the Commission's corrective actions and the Corporation's oversight efforts. In
accordance with OIG policies and the requirements of OMB Circular A-133, "Audits of States,
Local Governments, and Non-Profit Organizations," we will coordinate with, and build on the
work of, the State Auditors Offices or that of other independent auditors.
The Corporation's response is included in its entirety in Appendix C. Further OIG analysis and
comments on the response are presented in Appendix D.




Luise Jordan
Inspector General


August 14,2000
                                      Office of Inspector General
                                   Corporation for National Service
                               Pre-Audit Surveys of State Commissions
                               Table 1: Summary of State Commission
                         PY 1999 Staffing, Funding and Subgrantee Information.



        State
      Commission
                     /    Staffing
                          in FTEs
                                     I    CNS
                                         Funding
                                                    I   Awarded to
                                                        Subgrantees
                                                                      1   Type of Subgrantees
                                                                              (Number)

I                                          (Dollars in Thousands)
    Delaware                 3            $ 965           $     687 AmeriCorps (3)
                                                                    Learn and Serve America (1)
    Illinois                 3             4,629              4,292 AmeriCorps (18)
                                                                    Learn and Serve America (7)
                                                                    Other (12)

    Iowa                     3             1,250              1,009 AmeriCorps (8)
    Kentucky                 4             3,694              3,365 AmeriCorps (10)
                                                                    Learn and Serve America (5)
    Minnesota                5             3,495              3,301 AmeriCorps (12)
                                                                    Promise Fellows (1)

    Missouri                 3              1,998             1,877 AmeriCorps (14)
                                                                    Promise Fellows (4)
    New Hampshire            4              1,613             1,259 AmeriCorps (6)
    New Jersey               4              5,146             4,270 AmeriCorps (12)
    North Carolina           7              2,940             2,586 AmeriCorps (9)
                                                                    Learn and Serve America (13)
                                                                    Other (1)

    Ohio                     10             3,591              3,125 AmeriCorps (20)
                                                                     Learn and Serve America (8)
                                                                     Other (27)
    Pennsylvania              6             4,046              3,8 12 AmeriCorps (1 1)
                                                                      Learn and Serve America (10)
                                                                      Other (2)
                             Office of Inspector General
                          Corporation for National Service
                      Pre-Audit Surveys of State Commissions
                      Table 1: Summary of State Commission
                PY 1999 Staffing, Funding and Subgrantee Information.




1   State
  Commission
                    Staffing
                    in FTEs
                                CNS
                               Funding
                                         Awarded to
                                         Subgrantees

                                 (Dollars in Thousands)
                                                               Type of Subgrantees
                                                                    (Number)




7
Rhode Island                                              AmeriCorps (7)
                                                          Learn and Serve America (14)
                                                          Promise Fellows (1)



I
Tennessee



Virginia
                                                          AmeriCorps (1 5)
                                                          Learn and Serve America (15)
                                                          Other (22)
                                                          AmeriCorps (7)
                                                          - -              -




                                                          ArneriCorps (10)
                                                          Learn and Serve America (1)
                                                          Other (5)
                                                          --

West Virginia   1      5                                  AmeriCorps (8)
Wisconsin
                I                                         AmeriCorps (7)
                                                          Learn and Serve America (12)

Wyoming                                                   AmeriCorps (4)
                                                          Learn and Serve America (6)
                                       Office of Inspector General
                                     Corporation for National Service
                           Table 2: Adequate Systems of Management Controls
                                         By State Commissions




                             Adequate      Adequate Fiscal    Adequate         Adequate
   State                     Pre-Award     Management of     Monitoring of    Management
 Commission                   Selection      CNS Grant       Subgrantees      Controls Over
                               Process         Funds                          Training and
                                                                               Technical
                                                                               Assistance
Tennessee          I             d
Iowa                             d
New Jersey                       d
Pennsylvania                     d
Rhode Island                     d
West Virginia                    4
Wisconsin          I             d
New Hampshke




Ohio

~ o r t Carolina
        h

Washington

Illinois
                   I
                       1          I/




Missouri

Kentucky

Minnesota

Delaware
                                  Office of Inspector General
                                Corporation for National Service
                           Pre-Audit Surveys of State Commissions
                        Table 3: Analysis of State Commission Findings
                       By Category, Finding and Frequency of Occurrence
                          (All Findings for the 18 State Commissions)



    Category


Grant Award
                                               Finding


                   Adequacy of applicants' financial systems not considered in the
                   selection process.
                                                                                      Frequency
                                                                                                  1   Finding
                                                                                                       NO.'




                   Conflict of interest forms not maintained.

                   Documentation in support of grantee application rejections not
                   available for review.

                   Inadequate documentation to support subgrantee selection
                   process.

                   Documentation supporting grant making decisions not available
                   in all cases.

                   Documentation of ads for availabilitv of funds not maintained.

                   No written policies and procedures to ensure consistent
                   communication to selection officials for previously funded
                   applicants.

                   Documentation supporting the selection review process
                   inconsistent and incomplete.

                   No public advertising of program funds.

                   Limited advertising of funding availability.

                   Availability of 1998 program year funds not advertised - reasons
                   not documented.

                   No procedures to determine if subgrantees have been suspended
                   or disbarred bv the Federal government.

                   Subgrantee selection procedures do not identify data to be
                   provided by previously funded applicants.




I
    The finding number corresponds to the findings listed by state commission in Table 5
                                Office of Inspector General
                              Corporation for National Service
                         Pre-Audit Surveys of State Commissions
                      Table 3: Analysis of State Commission Findings
                     By Category, Finding and Frequency of Occurrence
                        (All Findings for the 18 State Commissions)



 Category                                    Finding                             Frequency   Finding
                                                                                               No.
   Fiscal        Financial Status Reports (FSRs) submitted untimely or late or
Administration   unable to determine submission date.

                 All required FSRs were not maintained and/or portions missing
                 from others.

                 Lack of evidence of FSR and matching reconciliation review.

                 No support for review of subgrantee FSRs and no comparison of
                 FSRs to accounting systems and/or documentation during site
                 visits.

                 Lack of review of matching and earmarking requirements.

                 No written procedures for review of matchine reauirements.

                 Inadequate documentation to support Commission's in-kind
                 match amount.

                 Learn and Serve FSRs ~reearedon a cash basis.

                 Lack of review of subgrantees' expense reimbursement reports.

                 Documentation supporting expenditures missing.

                 Lack of procedures to determine the accuracy of information
                 processed through the state's financial systems.

                 Funds not tracked using budget line items.

                 Staff levels inadequate to perform all required duties.
                            Office of Inspector General
                          Corporation for National Service
                     Pre-Audit Surveys of State Commissions
                  Table 3: Analysis of State Commission Findings
                 By Category, Finding and Frequency of Occurrence
                    (All Findings for the 18 State Commissions)




Category                                Finding                                  Frequency   Finding
                                                                                               No.
Monitoring   Monitoring system needs improvement. Site visit documentation
             missing.

             Lack of documentation of review of subgrantee OMB A-1 33 or
             3ther audit reports.

             No written procedures for follow-up on deficiencies at
             subgrantees.

             No comprehensive schedule for planned and actual site visits is
             maintained.

             No review of OMB A- 133 audit reports.

             No requirement for submission of OMB A-133 audit reports.

             Sample size determination not documented.

             No evidence of review of subgrantee financial systems, Member
             timesheets, expense documentation during site visits.

             Not all subgrantee OMB A- 133 audit reDorts were obtained.

             Information from Member surveys is not documented and
             maintained.

             Monitoring checklist not documented for specific Member files
             and expense items reviewed.

             No procedures to determine if subgrantees are performing
             prohibited activities.

             No written procedures for monitoring subarantees.

             Lack of timely communication and follow-up on deficiencies
             found during site visits.

             No written procedures to ensure subgrantees correct deficiencies.

             Subgrantee financial systems and expense documentation not
             reviewed during site visits.
                            Office of Inspector General
                          Corporation for National Service
                     Pre-Audit Surveys of State Commissions
                  Table 3: Analysis of State Commission Findings
                 By Category, Finding and Frequency of Occurrence
                    (All Findings for the 18 State Commissions)




Category                                 Finding                              Frequency   Finding
                                                                                            No.
Monitoring   Subgrantee OMB A- 133 or other audit reports not maintained.

             Subgrantee progress reports not formally verified during site
             visits.

             Unable to determine if arogress reaorts were received timelv.

             Review of progress reports and submission of results to
             subgrantees not in conformance with Council arocedures.

             Member service hours not tested.

             Procedures to select Members for testing not documented.

             No procedures to determine if Members' living allowances are
             correctly paid.

             Actual dates of site visits not documented.

             Procedures for Learn and Serve subgrantees do not include site
             visits or submission of written feedback on quarterly progress
             reports.
                                     Office of Inspector General
                                   Corporation for National Service
                              Pre-Audit Surveys of State Commissions
                          Table 4: Summary of State Commissions Findings
                       By Commission and Number of Findings in Each Category



                                                                                          Number of Findings in Each Category
           State Commission                            State Responses
                                                      (See 1, 2, & 3 Below)
                                                                                            Grant                Fiscal                 Monitoring
                                                                                            Award             Administration

Delaware                                                         2, 3                           5                     4                     2

Illinois                                                         2, 3                           2                     2                     3

Iowa                                                            2,3                             1                                           1
                                                      Unable to respond to
Kentucky                                             draft report within the 30                 4                     3                     3
                                                       day comment period

Minnesota                                                        2,3                            3                     1                     4

Missouri                                                          1, 3                          3                     4                     6
                                                 I



New Hampshire                                                    2,3                            5                     2                     7

New Jersey                                                       2,3                            1                     1                     3

North Carolina                                                   2,3                            3                     3                     3

Ohio                                                             2,3                            3                     2                     7

Pennsylvania                                                      1,3                                                 2                     4
                                                 I                                    I                   I                        I
Rhode Island                                                       2                                                  2                     2

Tennessee                                                          1                            1                      1

Virginia                                               No formal response                       2                                           2

Washington                                                        2,3                           1                     3                     2

West Virginia                                                     2, 3                                                 1                    2

Wisconsin                                                          2                            3                     3                      2

Wyoming                                                           1,3                           1                     2                     4

1. The Commission's response agreed with the findings and recommendations in the pre-audit survey report
2. The Commission disagreed in whole or in part with the findings and recommendations in the pre-audit survey report
3.     The Commission's response indicated that it initiated or planned to initiate corrective action in response to the findings and
       recommendat~onsin the pre-audit survey report.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                          Delaware Community Service Commission

     Category                                             Finding                                 Finding
                                                                                                  Number

Grant Award Process        nadequate documentation to support subgrantee selection process.

                           idequacy of applicants' financial systems not considered in the
                           ;election process.

                           yvailability of 1998 program year funds not advertised - reasons not
                           locumented.

                           Zonflict of interest forms not maintained.

                           Documentation in support of the pre-1998 grantee application
                           :ejections not available for review.

Fiscal Administration      No support for review of subgrantee FSR's and no comparison of
                           FSR's to accounting systems andlor documentation during site visits.

                           Fourteen FSR's submitted untimely or late and unable to determine
                           submission date of four others.

                           All required FSR's were not maintained and portions missing from
                           others from 1995 - 1997.

                           Administrative and Program Development and Training funds not
                           tracked using budget line items.

     Monitoring            Monitoring system needs improvement. Information excluded from
                           site visit documentation.

                           Lack of documentation of review of subgrantee OMB A-133 or other
                           audit reports.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                          Illinois Commission on Community Service

     Category                                           Finding                                 Finding
                                                                                                Number

Grant Award Process       No public advertising of program funds.

                          Documentation in support of the pre- 1998 grantee application
                          rejections not available for review.

Fiscal Administration     FSR's submitted untimely or late and unable to determine submission
                          date of four others.

                          Lack of review of subgrantees' expense reimbursement reports.

     Monitoring           No comprehensive schedule for planned and actual site visits is
                          maintained.

                          Not all subgrantee OMB A-133 audit reports were obtained.

                           Information from Member surveys is not documented and maintained.
                             Office of Inspector General
                          Corporation for National Service
                      Pre-Audit Surveys of State Commissions
                      Table 5 : Summary of Conditions Reported
                                 By State Commission



                            Iowa Commission on Volunteer Service
                       I
    Category                                              Finding                          Finding
                                                                                           Number

Grant Award Process        Conflict of interest forms not maintained.                        G9


    Monitoring             Monitoring system needs improvement. Site visit documentation
                           missing.                                                          M6
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



              Kentucky Commission on Community Volunteerism and Service

     Category                                            Finding                                 Finding
                                                                                                 Number

Grant Award Process       Documentation supporting grant making decisions not available in all
                          cases.

                          Adequacy of applicants' financial systems not considered in the
                          selection process.

                          Documentation of ads for availability of funds not maintained.

                          Conflict of interest forms not maintained.

Fiscal Administration     FSR's submitted untimely or late and unable to determine submission
                          date.

                          All required FSR's were not maintained and portions were missing
                          from others.

                          Lack of evidence of FSR and matching reconciliation review.

     Monitoring           Monitoring system needs improvement. Information excluded from
                          site visit documentation.

                           Lack of documentation of review of subgrantee OMB A-1 33 or other
                           audit reports.

                           Member service hours not tested.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                  Minnesota Commission on National and Community Service

     Category                                           Finding                                   Finding
                                                                                                  Number

Grant Award Process       Inadequate documentation to support subgrantee selection process.

                          Adequacy of applicants' financial systems not considered in the
                          selection process.

                          No written policies and procedures to ensure consistent communication
                          to selection officials for previously funded applicants.

Fiscal Administration     No written procedures for review of matching requirements.


     Monitoring           No written procedures for monitoring subgrantees.

                          No written procedures for follow-up on deficiencies at subgrantees.

                          Monitoring checklist not documented for specific Member files and
                          expense items reviewed.

                           Sample size determination not documented.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                           Llissouri Community Service Commission

     Category                                             Finding                                Finding
                                                                                                 Number

Grant Award Process        ldequacy of applicants' financial systems not considered in the
                           ;election process.

                           Zonflict of interest forms not maintained.

                           Vo procedures to determine if subgrantees have been suspended or
                           iisbarred by the Federal government.

Fiscal Administration      ?SR's submitted untimely or late or unable to determine submission
                           late.

                           All required FSR's were not maintained and/or portions missing from
                           3thers.

                           Lack of review of matching and earmarking requirements.

                           Documentation supporting expenditures missing.

     Monitoring            No written procedures for follow-up on deficiencies at subgrantees.

                           No comprehensive schedule for planned and actual site visits is
                           maintained.

                           Subgrantee financial systems and expense documentation not reviewec
                           during site visits.

                           No requirement for submission of OMB A- 133 audit reports.

                           No review of OMB A- 133 audit reports.

                           Information from Member surveys is not documented and maintained.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission

                                                             -   -       -




             New Hampshire Commission on National and Community Service

     Category                                            Finding                                          Finding
                                                                                                          Number

Grant Award Process       Adequacy of applicants' financial systems not considered in the
                          selection process.

                          Limited advertising of funding availability.                                      G6

                          Conflict of interest forms not maintained.                                        G9

                          Documentation in support of grantee application rejections not
                          available for review.

                          No written policies and procedures to ensure consistent communication
                          to selection officials for previously funded applicants.                          G12

Fiscal Administration     FSR's submitted untimely or late or unable to determine submission
                          date.                                                                   1
                          Lack of evidence of FSR and matching reconciliation review.             1         F4

     Monitoring           No written procedures for follow-up on deficiencies at subgrantees.     1         M2

                          No comprehensive schedule for planned and actual site visits is
                           maintained.                                                                      M5


                           No evidence of review of subgrantee financial systems, Member
                           timesheets, expense documentation during site visits.

                           No requirement for submission of OMB A- 133 audit reports.                       M9

                           No review of OMB A-133 audit reports.                                      I             I
                           No procedures to determine if subgrantees are performing prohibited
                           activities.                                                                      M22

                           No procedures to determine if Member's living allowances are
                           correctlv paid.                                                                  M23
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                New Jersey Commission on National and Community Service

     Category                                           Finding                                Finding
                                                                                               Number

Grant Award Process       Adequacy of applicants' financial systems not considered in the
                          selection process.

Fiscal Administration     FSR's submitted untimely or late or unable to determine submission
                          date.

     Monitoring           Monitoring system needs improvement. Site visit documentation
                          missing.

                          No review of OMB A- 133 audit reports.

                           Subgrantee OMB A-133 or other audit reports not maintained
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



           North Carolina Commission on Volunteerism and Community Service

     Category                                             Finding                                 Finding
                                                                                                  Number

Grant Award Process        hadequate documentation to support subgrantee selection process.

                           4dequacy of applicants' financial systems not considered in the
                           selection process.

                           Documentation of ads for availability of funds not maintained.

Fiscal Administration      No support for review of subgrantee FSR's and no comparison of
                           FSR's to accounting systems and/or documentation during site visit.

                           FSR's submitted untimely or late or unable to determine submission
                           date.

                           All required FSR's were not maintained and1 or portions missing from
                           others.

     Monitoring            Monitoring system needs improvement. Site visit documentation
                           missing.

                           Lack of documentation of review of subgrantee OMB A-1 33 or other
                           audit reports.

                           Actual dates of site visits not documented.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                         Ohio Governor's Community Service Council

     Category                                            Finding                                   Finding
                                                                                                   Number

Grant Award Process       Documentation supporting the selection review process inconsistent
                          and incomplete.

                          Conflict of interest forms not maintained.

                          Subgrantee selection procedures do not identify data to be provided by
                          previously funded applicants.

Fiscal Administration     Lack of evidence of FSR and matching reconciliation review.

                          Lack of procedures to determine the accuracy of information processed
                          through the state's financial system.

     Monitoring           No written procedures for follow-up on deficiencies at subgrantees.

                          Monitoring system needs improvement. Site visit documentation
                          missing.

                          No requirement for submission of OMB A- 133 audit reports.

                           No review of OMB A- 133 audit reports.

                           Unable to determine if progress reports were received timely.

                           Review of progress reports and submission of results to subgrantees
                           not in conformance with Council procedures.

                           Procedures for Learn and Serve subgrantees do not include site visits
                           or submission of written feedback on quarterly progress reports.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



               Pennsylvania Commission on National and Community Service

     Category                                             Finding                                      Finding
                                                                                                       Number

Fiscal Administration     FSR's submitted untimely or late or unable to determine submission
                          date.                                                                          F2

                          Staff levels inadequate to perform all required duties.                        F13


     Monitoring           No written procedures to ensure subgrantees correct deficiencies.              M4

                          No comprehensive schedule for planned and actual site visits is
                          maintained.                                                                    M5

                          No evidence of review of subgrantee financial systems, Member
                          timesheets, expense documentation during site visits.

                           Subgrantee progress reports not formally verified during site visits.   1    MI4
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



   Rhode Island Service Alliance: A Commission for National and Community Service

     Category                                           Finding                           Finding
                                                                                          Number

Fiscal Administration     Lack of evidence of FSR and matching reconciliation review.

                          Learn and Serve FSR's prepared on a cash basis.

     Monitoring           Monitoring system needs improvement. Site visit documentation
                          missing.

                          Procedures to select Members for testing not documented.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                Tennessee Commission on National and Community Service

     Category                                            Finding                                Finding
                                                                                                Number

Grant Award Process       Conflict of interest forms not maintained.


Fiscal Administration     All required FSR's were not maintained andlor portions missing from
                          others.
                             Office of Inspector General
                          Corporation for National Service
                      Pre-Audit Surveys of State Commissions
                      Table 5: Summary of Conditions Reported
                                By State Commission



                 Virginia Commission on National and Community Service

    Category                                           Finding                              Finding
                                                                                            Number

Grant Award Process     Conflict of interest forms not maintained.

                        Documentation in support of grantee application rejections not
                        available for review.
                        -




    Monitoring           Lack of timely communication and follow-up on deficiencies found
                         during site visits. Follow-up results not documented.

                         Sample size determination not documented.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                Washington Commission on National and Community Service

     Category                                           Finding                                  Finding
                                                                                                 Number

Grant Award Process       Documentation supporting grant making decisions not available in all
                          cases.

Fiscal Administration     No support for review of subgrantee FSR's and no comparison of
                          FSR's to accounting systems andor documentation during site visits.

                          FSR's submitted untimely or late and unable to determine submission
                          date.

                          All required FSR's were not maintained andor portions missing from
                          others.

     Monitoring           Monitoring system needs improvement. Information excluded from
                          site visit documentation.

                           Lack of documentation of review of subgrantee OMB A- 133 or other
                           audit reports.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



              West Virginia Commission on National and Community Service

     Category                                           Finding                                 Finding
                                                                                                Number

Fiscal Administration     FSR's submitted untimely or late or unable to determine submission
                          date.

     Monitoring           Not all subgrantee OMB A-133 audit reports were obtained.

                          No procedures to determine if subgrantees are performing prohibited
                          activities.
                                Office of Inspector General
                             Corporation for National Service
                         Pre-Audit Surveys of State Commissions
                         Table 5: Summary of Conditions Reported
                                   By State Commission



                        Wisconsin National and Community Service Board

     Category                                             Finding                                 Finding
                                                                                                  Number

Grant Award Process        Documentation supporting grant making decisions not available in all
                           cases.

                           Adequacy of applicants' financial systems not considered in the
                           selection process.

                           Conflict of interest forms not maintained.

Fiscal Administration      FSR's submitted untimely or late or unable to determine submission
                           date.

                            All required FSR's were not maintained andlor portions missing from
                            others.

                            Lack of evidence of FSR and matching reconciliation review.

     Monitoring             Monitoring system needs improvement. Site visit documentation
                            missing.

                            Lack of documentation of review of subgrantee OMB A- 133 or other
                            reports.
                               Office of Inspector General
                            Corporation for National Service
                        Pre-Audit Surveys of State Commissions
                        Table 5: Summary of Conditions Reported
                                  By State Commission



                  Wyoming Commission for National and Community Service

     Category                                           Finding                                 Finding
                                                                                                Number

Grant Award Process       Adequacy of applicants' financial systems not considered in the
                          selection process.

Fiscal Administration     Lack of evidence of FSR and matching reconciliation review.

                          Inadequate documentation to support Commission's in-kind match
                          amount.

     Monitoring           No written procedures for follow-up on deficiencies at subgrantees.

                          Lack of documentation of review of subgrantee OMB A-1 33 or other
                          reports.

                           Monitoring checklist not documented for specific Member files and
                           expense items reviewed.

                           Sample size determination not documented.
                                     Office of Inspector General
                                  Corporation for National Service
                              Pre-Audit Surveys of State Commissions
                           Table 6: State Commissions Audited as a Major
                           Program Under Single Audit Act Requirements



                                                Audited as a Major         Audited as a Separate Entity
                  State                        Program in the State's       Under Single Audit Act
                Commission                         Annual Audit                  Requirements
                                                  (Years Audited)               (Years Audited)

New Hampshire                                      June 30,1998


Rhode Island
  AmeriCorps                                                            September 30, 1995, 1996, 1997, 1998
   Learn and Serve and Administration Grants                                September 30, 1995 and 1996

Washington                                         June 30, 1998
                                                                                 Appendix A


                          Office of Inspector General
                        Corporation for National Service
                             Pre-Audit Surveys of
                              State Commissions


The tables and statistics for this report were compiled from the 18 pre-audit survey reports:

                                                                                    OIG
                           Commission                                              Report
                                                                                   Number
      Delaware Community Service Commission                                          00-06
      Illinois Commission on Community Service                                       00-32
      Iowa Commission on Volunteer Service                                           00-07

      Kentucky Commission on Community Volunteerism and Service                      00-1 1
      Minnesota Commission on National and Community Service                         00-3 1
      Missouri Community Service Commission                                          00- 17
      New Hampshire Commission on National and Community Service                     00- 19

      New Jersey Commission on National and Community Service                        00-26

      North Carolina Commission on Volunteerism and Community Service                00-08

       Ohio Governor's Community Service Council                                     00- 15

       Pennsylvania Commission on National and Community Service                     00-14
       Rhode Island Service Alliance: A Commission for National and                  00-27
       Community Service

       Tennessee Commission on National and Community Service                        00-09

       Virginia Commission on National and Community Service                         00- 18

       Washington Commission on National and Community Service                       00- 10

       West Virginia Commission on National and Community Service                    00-16
       Wisconsin National and Community Service Board                                00-29
       Wyoming Commission for National and Community Service                         00-35


Appendix B describes the objectives, scope and methodology used for these pre-audit surveys


                                          A. 1
                                                                                Appendix B
                                State Commission
                                Pre-Audit Surveys
                        Objectives, Scope and Methodology


Summary Report

CNS OIG agreed with Congressional committee staffto periodically provide a cross-cutting analysis
of the results of the state commission pre-audit surveys to provide insight on the strengths and
weaknesses of the state commissions. This report summarizes the conditions and other information
revealed by the first 18 state commission pre-audit survey reports.

We engaged the independent accounting firm of L. G. Bimbaum and Company to review and
analyze the reports and to compile the information in the Tables that accompany OIG's summary
report. The firm independently referenced the draft report and the data in the Tables.

The State Commission Pre-Audit Surveys

The purpose of the Office of Inspector General's pre-audit surveys of the individual state
commissions is to provide a preliminary assessment of their systems and procedures for
administering their AmeriCorps and other CNS funding. The procedures are less in scope than an
audit and are intended to provide for a preliminary assessment of


        the adequacy of the pre-award selection process;
.       the fiscal procedures at the commission;
.       the effectiveness of monitoring of subgrantees, including AmeriCorps Member activities
        and service hours; and
.       the controls over the provision of technical assistance.


The results of the survey aid OIG in determining future audit work to be performed at each
commission.

The survey methodology was developed by KPMG, LLP under contract to OIG during fiscal year
1999. KPMG and OIG requested and were provided information from the Corporation regarding
guidance provided to State Commissions. Development of the methodology included discussions
with Corporation staff including representatives of its Department of Evaluations and Effective
Practices. OIG actively participated in the design of the procedures.

The 18 surveys summarized in this report were performed by two independent accounting firms
under contract to OIG: KPMG, LLP and Urbach, Kahn and Werlin PC. The pre-audit surveys
include the following procedures:

         reviewing applicable laws, regulations, grant provisions, the Corporation's State
         Commission Reference Manual, and other information to gain an understanding of legal,
         statutory and programmatic requirements;
                                                                                    Appendix B
                                 State Commission
                                 Pre-Audit Surveys
                         Objectives, Scope and Methodology


       reviewing OMB Circular A- 133 reports and current program year grant agreements for the
       commission;

       obtaining information from commission management to complete flowcharts documenting
       the hierarchy of CNS grant funding for program years 1995 through 99; and

.      performing the procedures detailed below over the commission's internal controls, selection
       of subgrantees, administration of grant funds, evaluation and monitoring of grants, and the
       technical assistance process.

Each commission's internal controls are documented and tested using inquiries, observations, and
examination of a limited sample of source documents. The results of our work are summarized to
develop the findings and recommendations for each commission.

Although the work performed does not constitute an audit, the procedures, described herein, are
performed in accordance with Government Auditing Standards issued by the Comptroller General
of the United States. We provide drafts of each report to the individual commission and to the
Corporation for comment and include their responses in the final report.


Objective and the Procedures Performed for each area

        Internal Controls

Our objective is to make a preliminary assessment of the adequacy of the commission's financial
systems and documentation maintained by the commission to provide reasonable assurance that
transactions are properly recorded and accounted for to: (1) permit the preparation of reliable
financial statements and Federal reports; (2) maintain accountability over assets; and (3) demonstrate
compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identify the compliance requirements with a direct and
material effect on the commission's AmeriCorps and other grant program, as follows: activities
allowed or unallowed and allowable costs; cash management; eligibility; matching; period of
availability of Corporation funds; and reporting by the commission to the Corporation. We then
interview key commission personnel to assess the commission's controls surrounding these
requirements.

        Selecting Subgrantees

Our objectives are to make a preliminary assessment:

.        of the adequacy of the systems and controls utilized by the commission to select national
         service subgrantees to be included in an application to the Corporation;
                                                                                   Appendix B
                                 State Commission
                                 Pre-Audit Surveys
                         Objectives, Scope and Methodology



        as to whether the commission evaluated the adequacy of potential subgrantee financial
        systems and controls in place to administer a Federal grant program prior to making the
        award to the subgrantees; and

.       as to whether commission involvement in the application process involved any actual or
        apparent conflict of interest.

In order to achieve the above objectives, we interview key commission management and
documented procedures performed by the commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also review documentation to determine
if conflict of interest forms for each subgrantee applicant tested were signed by selection officials
annually and maintained by the commission.

        Administering the Grant Funds

Our objectives are to:

.       make a preliminary assessment of the adequacy of the systems and controls utilized by the
        commission to oversee and monitor the performance and progress of funded subgrantees;

.       make a preliminary assessment as to whether the commission's organizational structure and
        staffing level and skill mix are conducive to effective grant administration and whether the
        commission has a properly constituted membership;

        make a preliminary assessment as to whether the commission provided adequate guidance
        to subgrantees related to maintenance of financial systems, records, supporting
        documentation, and reporting of subgrantee activity;

.       make a preliminary assessment of the adequacy of financial systems and documentation
        maintained by the commission to support oversight of subgrantees and required reporting
        to the Corporation (including Financial Status Reports, enrollment forms and exit forms);
        and

.        determine whether the commission has procedures in place to verify the accuracy and
         timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we review Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the commission to the Corporation,
to preliminarily assess the accuracy of submitted Financial Status Reports.
                                                                                  Appendix B
                                 State Commission
                                 Pre-Audit Surveys
                         Objectives, Scope and Methodology



        Evaluating and Monitoring Grants

Our objectives are to:

        make a preliminary assessment of the adequacy of the systems and controls utilized by the
        commission, in conjunction with the Corporation, to implement a comprehensive, non-
        duplicative evaluation and monitoring process for their subgrantees;

        determine whether the commission has an established subgrantee site visit program in place
        and make a preliminary assessment of the effectiveness of its design in achieving
        monitoring objectives;

        make a preliminary assessment of the adequacy of the commission's procedures used to
        assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
        of Members, service hour reporting, prohibited activities, payment of living allowances to
        Members and allowability of costs incurred and claimed under the grants by subgrantees
        (including reported match));

        make a preliminary assessment of the adequacy of the commission's procedures for
        obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
        A-1 33 audit reports, where applicable;

        determine whether program goals are established and results are reported and compared to
        these goals; and

.       make a preliminary assessment of the adequacy of the procedures in place to evaluate
        whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we document the procedures performed by the commission
to evaluate and monitor individual subgrantees. In addition, we judgmentally select subgrantees and
obtain the commission's documentation for site visits. We review the documentation to
preliminarily assess the adequacy of the procedures performed by the commission to assess financial
and programmatic compliance and related controls at the sites. We also determine whether the
commission receives and reviews OMB Circular A-133 audit reports from subgrantees.

        Providing Technical Assistance

Our objectives are to:

         make a preliminary assessment of the adequacy of the systems and controls utilized by the
         commission to provide technical assistance to subgrantees and other entities in planning
         programs, applying for funds, and implementing and operating programs;
                                                                                   Appendix B
                                 State Commission
                                 Pre-Audit Surveys
                         Objectives, Scope and Methodology


        determine whether a process is in place to identify training and technical assistance needs;
        and

.       determine whether training and technical assistance is provided to identified subgrantees.

In order to achieve the above objectives, we document the procedures performed by the commission
to identify and satisfy training needs for the subgrantees and commission employees. We also
obtain summaries of training costs incurred during the current year to ensure they properly relate
to training activities that were made available to all subgrantees.
                                                                                                                                                Appendix C


                                                                        FOR NATIONAI.




       TO:                       Luise S. Jordan, Ins~ectorGeneral

       THRU:                     Anthonyd ; s r c F h i Z & i i i A c e r

       FROM:                     Deborah R. Jospin, Director, AmeriCorps -
                                                                                                  ,&q:
                         ,       B N C H.
                                       ~ Cline, Director, Grants ~ a n a ~ e m e n t b

       DATE:                     September 13,2000

       SUBJECT:                  Response to OIG Draft Report 00-42: Summary of Eighteen State
                                 Commission Pre-Audit Survey Reports


      We have reviewed the draft report summarizing information from the first 18 state
      commission pre-audit surveys. It is important to note that the Inspector General's
      surveys reviewed only a portion of commissions' overall responsibilities. The National
      and Community Service Act lists specific duties of these governor-appointed
      commissions. Commissions select and administer the AmeriCorps subgrant program;
      they also take a leadership role in other national service and volunteer activities in the
      state, work collaboratively with government, businesses, and the non-profit community to
      develop national service plans for the state, and coordinate the activities of other
      Corporation and national service programs in the state. They are managed by
      commissioners appointed by their governor, and their activities and operations reflect the
      needs and priorities of the respective state.

      The 18 state commissions referenced in this review were created in 1994 and 1995. These
      commissions began operations immediately: establishing state priorities for national
      service, reviewing program proposals, selecting programs, preparing an application to the
      Corporation, and providing a wide range of support services to their subgrantees.
      Although some of the commissions were well funded and amply staffed, many were not.
      Many began operations with minimal systems in place to meet the programmatic and
      administrative requirements of these new federal grants. Therefore, we are pleased with
      the progress made by the commissions since their inception.

      The Corporation and the commissions have been working on ways to strengthen grant
      management. Over the last seven years, several fiscal and program management
      improvements have been put in place to prudently manage and monitor the awarding of
      federal funds. This has taken place as we have devolved more responsibility to states for
      the administration of national service programs. As one Governor has stated,
      "AmeriCorps has been successful precisely because it is not a top-down Washington
      program. In fact, it is one of the most far-reaching experiments in local control
      government has ever supported."



NATIONAL SERVICE: GETTING THINGS DONE                                                                             -
                                                                                      1201 New York Avenue. N.W Washington. D.C.    ,20525
AncriCmp   . L m n ual   $ 1 ~ ~ Amt.r~,-u
                                 .           .N ~ I I I ~ I ~
                                                       ~ I I I , I~
                                                                  I I Y I I (-,JIJ\
                                                                            .~                              -
                                                                                                202-606-5000 website: www.nationdsc.rvicc.org
                                                                                      tclepho~lc:


                                                                                           C. 1
                                                                                                            Appendix C



     In addition, the Corporation, with input from the commissions, d e v e l ~ ~
                                                                                State
                                                                                  ~d
    Administrative Standards to assess and monitor commission activities, fhc Standards arc
    becoming the primary tool the Corporation uses to monitor state commissions. To date,
     13 state commissions have been reviewed using this tool and the rest will be reviewed by
    the end of 2002. The eleven individual standards that comprise this tool wcrr developed
    over a two-year period and were pilot tested before being finalized in 1999. n e purpose
    of the Standards is to ensure that each State commission has proper management systems
    in place for the administration of ftderal fbnds. The Standards review process consists of
    a self-ass&sment by the Commission using the same tool the reviewers use, advance
    technical assistance to the grantee, a week-long visit by a fwr-to-six member review
    team, and mitten feedback. Following the review, appropriate training or technical
    assistance is made available to a d d m any weakncsscs identified.

    The Commissions arc responding to the preaudit surveys and the ncommendations
    contained therein, In many cases, the commissions have implemented the
    recommendations contained in the audit ~cportand the Corporation is following up with
    each State Commission a s part of on-going monitoring activities, including the State
    Administrative Standards review.

The Corporation docs want to express its concerns about the decisions to conduct full-                     OIG discusses this
scope audits on many of the commissions. Despite the OIG's finding that ten' of the 18                     matter on page 3
commissions surveyed had adequate fiscal management proccs~sin place for                                   of the report.
administration of Corporation grant funds, OIG is recommending hll or limited scope
audits for 17 of the commissions. Because many of the survey findings relate to non-
financial management issues, we recommend that they be resolved administratively and
be verified through subsequent Administrative Standards and other program reviews.
This approach would be less burdensome, more economical, and would provide adequate
assurance that identified problems have been addressed and resolved.

We feel compelled to note that a significant number of findings arc minor administrative
issues, e.g. failure to maintain all conflict of interest fonns, failure to date sfamp all
reports, failure to record the names of members whose files were reviewed during site
?isits, and lack of written documentation of established procedures. Additionally, the
auditors noted that a nunlber of problems occurred in earlier years and have since been
rcsolvcd.

Additionally, the Corporation notes the following in the report:

      We have concerns that the OIG may be making some adverse findings without                          OIG comments on
      identifying, on a consistent basis, the specific requirements with which commissions               this matter are in
      must comply. The preaudit surveys rely heavily on the Re/crcce Manualfor                           Appendix D.
      Commirsion Erecutive Directors and Members as the basis for making furdings of
      non-compliance. This manual is a training and technical assistance tool, it is not

I
 Tabk 2 included in h e dnft report kfi Ohio out offhe list o f commissions that have "Adequale Fiscal
Managcmeot of CNS Grant Funds." The Prc-adu S u m y Repat o f the Ohio Commissionstated h a t l c
Commbim did have adequate fiscal management of CNS y n t funds.
                                                                                          Appendix C




legally binding, and includes many advisory provisions that are not requirements. It
is described in the introduction as a "bundle of resources [and) not a step-by-step
formal guide..."To the extent that the manual contains references to requirements in
statutes, regulations, and grant provisions, the bases for these requirements are the
referenced legal rules and not the Manual itself. Moreover, the pre-audit surveys tend
to refer generally to "Corporation guidelinesn without specifically identifying the
requirements at issue. If OIG is going to rely on findings in the pre-audit surveys in
determining whether to undertake more extensive audits of commissions, it is
imperative that the basis for each finding be clearly identified and constitute a
requirement rather than a suggestion or recommendation.

The OIG incorrectly states that "the Corporation, historically, has not carried out a      OIG comments on
comprehensive, risk-based program for grantee financial and programmatic oversight         this matter are in
and monitoring." The Corporation carries out a documented monitoring program and           Appendix D.
expanded it in 1999 with an explicit, risk-based tool to set site visit priorities. We
have committed considerable resources to monitoring activities, including staff
training, developing monitoring tools, and travel. Limited resources have prevented
the Corporation from conducting as much monitoring as it has desired, but we have
made concerted and successful efforts to visit those grantees identified as high
priority in our monitoring plans.

The OIG's statement that "the Corporation lacks a management information system            OIG comments on
that maintains comprehensive information on its grants, including those to state          this matter are in
commissions and their subgrantees" is misleading. In fact, the Corporation maintains      Appendix D.
management information systems for NCSA grants that encompass all key pre- and
post award action, including review of applications, generating notices of grant
award, monitoring, audits, and close out. We also maintain separate management
information systems for DVSA grants. The Corporation recognizes areas for
improvement in these systems and is working with a private contractor to develop a
state-of-the-art management information system for all Corporation grants.

The OIG's statement that "Many [commissions] did not review and maintain                  See Table 3
subgrantee financial status reports" is overly broad and misleading. Although the
surveys indicate that at some individual commissions not all reports were maintained
and not all were reviewed, no report indicated that any commission completely failed
to maintain subgrantee financial status reports.

The 01G states that the Corporation did not respond to the recommendation to specify      OIG comments on
minimum monitoring procedures to be performed and maintain minimum                        this matter are in
documentation. This is misleading. Corporation responses to that recommendation           Appendix D.
are due with the management decisions on the individual audits. The first time the
recommendation appears is in a preaudit survey report for which a management
decision is due later this fall. However, to the extent that monitoring is construed to
                                   -
mean site visits, the OiG is correct we purposefully do not set minimum monitoring
procedures ind documentation requirements. The responsibility for monitoring
subgrantees lies with each state commission. Because we hold the grantee (i.e.. the
                                                                                             Appendiu C



    State) accountable for its subgrantees, we expect each State commission to define site
    visit procedures, documentation, and frequency following state quirem menu.

   Finally, the statement that the "OIG has not been provided with a schedule or plan
   that would indicate how the Corporation plans to complete the administrative
   standards review on a three-year cycle" is correct. The Corporation's plans have, as
   could be expected, evolved throughout the pilot and early implementation phases.
   The Corporation provided a schedule for FY 2000 to the OIG, and meived
   acknowledgement of that receipt on July 10,2000. The Corporation has indicated
   that it *ill complete the State Administrative Standard reviews within three years.
   The specific schedule of which States will be reviewed in 2001 and 2002 has not bear
   fmalizcd. One of the facton that the Corporation will consider in scheduling these
   reviews is the information provided in the prt-audit mrveys.

Overall we disagree with the wnclusiom and tenor of this summary report. The report          OIG comments on
was "to provide a cross-cutting analysis of the results of the state commission preaudit     this matter are in
surveys to provide insight on the strengths and weaknesses of the state commissions."        Appendix D.
Rather, the report catalogues findings, omits reporting the many instances when earlier
problems were resolved by grantees, fails to note the significant and continuing
improvements of state commissions, and overlooks the positive efforts of the Corporation
to improve grantee oversight. We feel strongly that data gleaned from these surveys can
be used to inform both the Corporation and its grantees, and we hope that future reports
will more accurately capture the positive findings and trends in addition to areas for
improvement.




Cc: Wendy Zcnker
                                                                                           Appendix D
                      OIG Comments on Specific Items Noted in
                  The Corporation's Response to the Summary Report



CNS Response: On page 2 of its response, (Appendix C) CNS expresses concerns that OIG "may
be making some adverse findings without identifying, on a consistent basis, the specific
requirements with which commissions must comply. The pre-audit surveys rely heavily on the
Reference Manual for Commission Executive Directors and Members as the basis for making
findings of non-compliance. This manual is a training and technical assistance tool, it is not legally
binding, and includes many advisory provisions that are not requirements."

OIG comment: The objectives, scope and methodology for the surveys (Appendix B) clearly
indicate that the pre-audit surveys are not based on the Reference Manual. Furthermore, review of
the findings (Tables 3 and 5) reveals they are basically conditions that common sense indicates,
warrant correction or improvement -- regardless of the specific criteria cited in the report.

We cited the Reference Manual in the reports as criteria in certain findings because we wanted to
"tailor" them to CNS guidance to the commissions and that was the guidance material provided to
us for our use by the Corporation. Now, CNS responds that the Reference Manual is "not legally
binding." Therefore, for reports issued in FY 2001 and future years, we will replace citations from
the Reference Manual with other criteria including additional citations to OMB requirements, the
Corporation's regulations, and its Administrative Standards issued in FY 2000.


CNS Response: On page 3 of its response, the Corporation takes issue with OIG's statement that
"the Corporation, historically, has not carried out a comprehensive, risk-based program for grantee
financial and programmatic oversight and monitoring." CNS asserts that it has a documented
monitoring program and, expanded it in 1999 with an explicit, risk-based tool to set site visit
priorities.

OIG Comment: OIG does not dispute that the Corporation may have made some improvements in
certain areas of its monitoring. However, we have yet to find, or to receive evidence of, an effective
and comprehensive monitoring and oversight program.


CNS Response: Also on page 3, the response describes OIG's statement that ". . . the Corporation
lacks a management information system that maintains comprehensive information on its grants,
including those to state commissions and their subgrantees" as misleading.

OIG Comment: OIG acknowledges that CNS has some systems that maintain certain grant-related
data. However, CNS' grant systems are a patchwork of systems and databases and are not
comprehensive. The quality of and location of CNS' grant files is unpredictable. Therefore, OIG
does not consider the statement misleading. The Corporation's recent project to define the
requirements for a grants management system further ratifies OIG's statement.
                                                                                         Appendix D


CNS Response: The Corporation, quoting out of context, cites OIG's statement that, "Many of them
[the state commissions], however, did not review and maintain subgrantee financial status reports
(FSRs) or obtain them from the subgrantees in a timely manner" as overly broad and misleading.

OIG Comment: OIG's statement summarizes findings F1 through F4 in Table 3 under the Fiscal
Administration category.


CNS Resvonse: CNS characterizes as misleading the following paragraph of the summary report,

        "In addition to the specific recommendations for improving monitoring at
        individual state commissions, we recommended that the Corporation revise its
        guidance to state commissions to specify minimum monitoring procedures to be
        performed, as well as minimum documentation requirements. The Corporation has
        not responded to this recommendation."

The Corporation goes on to argue that no response is required because the deadlines for management
resolution have not been reached. In addition, the response indicates that CNS ". . . purposefully
[does] not set minimum monitoring procedures and documentation requirements. Because we hold
the grantee (i.e., the State) accountable for its subgrantees, we expect each State commission to
define site visit procedures, documentation, and frequency following state requirements."

OIG Comments: State Commission monitoring of subgrantees was the most problematic area in our
pre-audit survey assessments. Often, we were unable to determine what had been looked at or the
extent of the review. Given the frequency of the findings in this area, the prudent thing for CNS to
do would have been to take action. The justification that a response was not due until a formal
deadline arrives, equates management to flipping a switch rather than a continuous process.
Moreover, CNS' statement that it purposefully does not set minimum requirements in this area
seems to abrogate its responsibility to manage National Service programs and AmeriCorps Member
service by providing adequate coordination, guidance and oversight. Even considering devolution
of responsibility, there is a need for a mandate in writing from the Corporation requiring that
monitoring be performed and setting forth basic requirements on the areas to be covered and
minimum documentation requirements.


CNS Response: The response concludes by expressing the Corporation's overall disagreement with
the "conclusions and tenor" of the summary report. Specifically, the Corporation objects to the
listings of findings and the summary report's omission of reported corrections and improvements
by the state commissions and of positive efforts of the Corporation to improve grantee oversight.

OIG Comments: The Corporation has had an opportunity to respond to each finding in each report.
Because CNS has not objected to the findings in the individual reports, it is difficult to understand
why the Corporation objects to a summary listing. Moreover, each report requested that CNS
follow-up on each commission's corrective actions. Had OIG received independent or objective
evidence of corrections and improvement, we would have considered including the information. We
have received no such evidence, nor are we aware of positive efforts by CNS to improve grantee
oversight. As we perform our follow-up audit work, we will report the actions taken to correct and
to improve the conditions reported herein.
